         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Allegations of Suspect Parts in Sun
Microsystems Processors at Sandia
National Laboratories – New Mexico




INS-L-11-04                     September 2011
                                 Department of Energy
                                   Washington, DC 20585
                                      September 16, 2011


MEMORANDUM FOR MANAGER, SANDIA SITE OFFICE

FROM:                   Sandra Bruce
                        Assistant Inspector General for Inspections
                        Office of Inspector General
SUBJECT:                INFORMATION: Inspection Report on "Allegations of Suspect
                        Parts in Sun Microsystems Processors at Sandia National Laboratories –
                        New Mexico"

BACKGROUND

Sandia National Laboratories-New Mexico (Sandia) is a science-based technology organization
that purchases world class technologies and specialized services to support Sandia's national
security mission. Sandia is managed and operated under contract by Sandia Corporation, a
subsidiary of Lockheed Martin Corporation. Oversight of Sandia Corporation's contract is
performed by the National Nuclear Security Administration's (NNSA's) Sandia Site Office (Site
Office). In support of its mission, Sandia has maintained a Just-In-Time (JIT) contract with
Commercial Data Systems (CDS), an authorized reseller of computer hardware components
since 2001, to provide commercial-off-the-shelf Sun Microsystems products to Sandia. The JIT
contract was executed as a three-year contract with multiple one-year options, beginning May 7,
2001, with an overall contract value of about $58 million. A new JIT contract for Sun
Microsystems products was advertized and awarded to CDS in July 2011.

The Office of Inspector General received a complaint which alleged, in part, that from 2004 to
2009, CDS provided Sun products to Sandia that were purchased from unauthorized distributors.
It was specifically alleged that there was a very high probability that the products in question
were purchased on the "Grey Market," and were therefore suspect. We initiated this inspection
to determine the facts and circumstances relating to the allegation.

CONCLUSIONS AND OBSERVATIONS

We were unable to substantiate the allegation that Sandia purchased suspect computer parts that
were installed in Sun Microsystems processors. However, we did find that, for a period of more
than six years, CDS provided commercial-off-the-shelf Sun Microsystems products to Sandia
under the JIT contract without specific quality clauses prohibiting delivery of suspect or
counterfeit items.

Contrary to Department of Energy (Department) guidelines, we determined that the standard
clause prohibiting delivery of suspect or counterfeit items had not been included in the JIT
contract with CDS. The Department's Guide 440.1-6 Implementation Guide for use with
Suspect/Counterfeit Items Requirements of Department of Energy Order 440.1, Worker
Protection Management dated June 30, 1997, was in effect at the beginning of the CDS contract.
This guide states that purchase orders and contracts should contain quality clauses prohibiting
delivery of suspect and counterfeit items. The updated version of the Department's Guide 414.1-
3, Suspect/Counterfeit ItemsGuide, dated November 3, 2004, states that purchase orders and
contracts should contain specific quality clauses prohibiting delivery of suspect or counterfeit
items, including provisions that prohibit subcontractors from bringing these items on site and that
hold subcontractors accountable for replacing these items at their expense. The Guide also
contains a standard Suspect and Counterfeit Items clause that is recommended for inclusion in
procurement documents. This clause references materials that are defective, suspect, or
counterfeit; materials that have been provided under false pretenses; and materials or items that
are materially altered, damaged, deteriorated, degraded or resulted in product failure.

The CDS contract was a three-year contract with seven one-year options, beginning on May 7,
2001. This contract was revised numerous times since 2001, to include revisions to contract
sections on Pricing, Statement of Work, Delivery and Period of Performance and Payments.
However, the contract was not revised to include the Suspect and Counterfeit Items clause
contained in the Department's Guide 414.1-3. The Suspect and Counterfeit Items clause was not
included in the JIT contract because Sandia relied on the manufacturer's quality assurance
program to meet the requirements set forth in the contract. As a result, there was no contractual
obligation on the part of CDS to comply with the prohibition on the delivery of suspect or
counterfeit items, and Sandia was not afforded the protection under the clause that indemnifies
Sandia, its agents, and third parties for any financial loss, injury or property damage.

Suspect and counterfeit items are a serious concern to Sandia because they present a potential
threat to equipment and system reliability. Failure of a safety or mission critical system due to a
suspect or counterfeit item could have security implications at Sandia facilities. The Guide was
developed to assist the Department and the NNSA (and its contractors) mitigate the threat of
suspect and counterfeit items in safety systems and mission critical facilities. A Suspect and
Counterfeit Items clause was included in the new July 2011 contract with CDS, and we were told
by Sandia officials that, since 2008, the Suspect and Counterfeit Items clause has been
incorporated in other Sandia contracts.

SUGGESTED ACTION

Considering the fact that suspect and counterfeit items are a serious concern, we suggest that the
Manager, Sandia Site Office, review the use of the standard clause for suspect and counterfeit
items at Sandia and ensure that Sandia continues to incorporate the clause when appropriate into
new and existing contracts.

Since we are not making any recommendations, a response to this report is not required.

We appreciate the cooperation we received from your staff during our inspection. If you have
any questions concerning this inspection, please contact Mr. Richard W. Curran, Director,
Western Inspection Region, Office of Inspections, at (505) 845-5153.




                                                 2
Attachment

cc:   Administrator, National Nuclear Security Administration
      Deputy Secretary
      Associate Deputy Secretary
      Chief of Staff




                                       3
                                                                                   Attachment


SCOPE AND METHODOLOGY

We initiated this inspection to determine the facts and circumstances relating to the allegation.

This inspection was performed between September 2010 and January 2011 at the National
Nuclear Security Administration's (NNSA's) Sandia National Laboratories-New Mexico
(Sandia). To accomplish the objective of the inspection, we reviewed and analyzed:

        Applicable Department of Energy and site specific policies and procedures.

        The Just-In-Time contracts between Sandia and Commercial Data Systems.

We also interviewed key personnel located at the NNSA Sandia Site Office, and contractor
officials and employees at Sandia regarding counterfeit and suspect items, procurement policies
and procedures, and cyber security.

This inspection was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency, "Quality Standards for Inspections," issued by the President's Council
on Integrity and Efficiency, January 2005. Those standards require that we plan and perform the
inspection to obtain sufficient, appropriate evidence to provide a reasonable basis for our
conclusions and observations based on our inspection objective. We believe the evidence
obtained provides a reasonable basis for our conclusions and observations based on our
inspection objective. The inspection included tests of controls and compliance with laws and
regulations to the extent necessary to satisfy the inspection objective. Because our review was
limited, it would not necessarily have disclosed all internal control deficiencies that may have existed
at the time of our inspection.




                                                   4
                                                                             IG Report No. INS-L-11-04


                                   CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible to our customers' requirements, and, therefore,
ask that you consider sharing your thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports. Please include answers to the following
questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   inspection would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in
   the report to assist management in implementing corrective actions?


3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?


4. What additional actions could the Office of Inspector General have taken on the issues discussed in
   this report which would have been helpful?


5. Please include your name and telephone number so that we may contact you should we have any
   questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                   Office of Inspector General (IG-1)
                                         Department of Energy
                                        Washington, DC 20585

                                      ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
